OFFICE OF INSPECTOR GENERAL



FOLLOWUP AUDIT OF
USAID/SENEGAL’S
CONTRACTING OPERATIONS
AUDIT REPORT NO. 7-685-08-004-P 

DECEMBER 28, 2007 





DAKAR, SENEGAL

     Office of Inspector General


     December 28, 2007

     MEMORANDUM

     TO:                  USAID/Senegal Director, Kevin Mullally

     CC:	                 USAID/West Africa Director, Henderson Patrick

     FROM: 	              Acting Regional Inspector General/Dakar, Abdoulaye Gueye

     SUBJECT:	            Followup Audit of USAID/Senegal’s Contracting Operations (Report No.
                          7-685-08-004-P)

     This memorandum transmits our final report on the subject audit. In finalizing our report,
     we considered your comments on our draft report and have included your response in its
     entirety in appendix II.

     This report contains two recommendations. Based on the information provided in
     USAID/Senegal’s response to the draft report, management decisions have been made
     on both recommendations. Determination of final action on the recommendations will be
     made by the Audit, Performance, and Compliance Division (M/CFO/APC).

     I appreciate the cooperation and courtesy extended to my staff throughout the audit.




U.S. Agency for International Development
Ngor Diarama
Petit Ngor
BP 49
Dakar, Senegal
www.usaid.gov
CONTENTS 

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 3 


Audit Objective .................................................................................................................. 4 


Audit Findings ................................................................................................................. 5 


     Contract Information System Is Not Fully
     Implemented ............................................................................................................... 5 


     Controls Needed for Closeout Process ...................................................................... 7 


Evaluation of Management Comments ......................................................................... 9 


Appendix I – Scope and Methodology ........................................................................ 10 


Appendix II – Management Comments ....................................................................... 11 





                                                                                                                                  3
SUMMARY OF RESULTS

The Regional Inspector General/Dakar conducted this followup audit to determine whether
USAID/Senegal took appropriate corrective actions on three recommendations previously
reported in the Audit of USAID/Senegal’s Contracting Operations, Audit Report No. 7-685
05-003-P issued January 31, 2005. (See page 4.)

USAID/Senegal took adequate measures to close Recommendation No. 2, which
addressed the submission of contractor performance information to the National Institutes
of Health (NIH) contractor evaluation system. An acquisition and assistance specialist
within the Regional Contracting Office (RCO) at USAID/Senegal was assigned the
responsibility for completing and submitting contractors’ performance evaluations in the
NIH Contractor Performance System and has been doing so on a timely basis. In
addition, contractor performance issues are discussed during USAID/Senegal’s portfolio
reviews. (See page 5.)

USAID/Senegal, however, did not take sufficient action to implement Recommendation
Nos. 1 and 3 of the prior audit report. In response to Recommendation No. 1,
USAID/Senegal agreed to identify and implement an integrated contract information
system. A database was created and information on that system was submitted to justify
closure of the recommendation. At the time of the followup audit, however, this database
system was no longer being used and some of the same weaknesses found in the prior
audit continued to exist. The former regional contracting officer began using the Agency’s
Secure Image and Storage Tracking (ASIST) system as another mechanism to manage
contract information, but only 1 of 82 contract documents had been entered into the
system at the time of the followup audit. The lack of followthrough and persistence in
using the database and ASIST occurred because the contracting officer position was
vacant for more than 1 year, resulting in limited leadership and direction for the two
acquisition and assistance specialists within the RCO. As a result, management and other
staff cannot be assured that contract data they need for their programs is accurate and
complete. (See page 5.)

Recommendation No. 3 of the prior audit recommended that USAID/Senegal develop
procedures assigning responsibility to specific staff to actively monitor and close out
expired instruments. USAID/Senegal agreed and submitted its internal Acquisition and
Assistance (A&A) Policy No. 2 Close-Out Procedures for Completed Instruments as final
action to close the recommendation. However, that policy did not specifically designate
who is responsible for monitoring the closeout process, a key element of the
recommendation. Although this policy combined with the existing USAID Senegal Mission
Order 216-1 provides sufficient guidance for the closeout process, sufficient controls are
lacking to manage and measure progress in the closeout process. As mentioned earlier,
the contracting officer position at USAID/Senegal remained vacant for a 14-month period,
resulting in a lack of senior oversight and direction. Without such controls, there is no
assurance that closeouts are being completed in a timely manner, and the mission risks
being in noncompliance with the USAID Automated Directives System and/or the Federal
Acquisition Regulation. (See page 7.)

The report includes two recommendations for corrective actions to address these
conditions by USAID/Senegal: (1) establish a plan and schedule to develop and


                                                                                      1
implement an integrated database suitable for tracking and monitoring contract
documents (see page 7) and (2) develop controls to facilitate the management and
measurement of progress toward closing out funding instruments. (See page 8.)
USAID/Senegal agreed with the recommendations and included an action plan in its
response with a schedule to complete implementation of both recommendations.
Therefore, management decisions have been made. The mission’s comments in their
entirety are presented in appendix II.




                                                                              2
BACKGROUND

In 2004, the Regional Inspector General/Dakar (RIG/Dakar) conducted an audit to
determine whether the Regional Contracting Office (RCO) located within USAID/Senegal
complied with USAID’s guidelines in providing contracting support. The results of the
audit were presented in Audit Report No. 7-685-05-003-P Audit of USAID/Senegal’s
Contracting Operations dated January 31, 2005.

In its 2005 report, RIG/Dakar concluded that the RCO followed USAID’s guidelines
related to bid solicitation and awarding of instruments, certain aspects of contract
administration and instrument file maintenance. However, that audit also revealed
several weaknesses. RIG/Dakar found that the RCO was encumbered by ineffective
electronic recordkeeping resulting in untimely reports with errors. In addition, staff in the
RCO did not complete and submit evaluations of contractor performance to the National
Institutes of Health (NIH) Contractor Performance System as required by the Federal
Acquisition Regulation (FAR). The Contractor Performance System is a multiagency
shared file used to collect, maintain, and disseminate contractor performance
evaluations for the Federal departments and agencies. Finally, RIG/Dakar found that the
RCO did not close out expired instruments in a systematic and timely manner as
specified by the FAR and the local USAID Senegal Mission Order 216-1.

RIG/Dakar made three recommendations to correct these weaknesses. The mission
concurred with the three recommendations and proposed specific actions that would be
taken. At the time the final report was issued in January 2005, management decisions
were reached for the three recommendations but final action to close the
recommendations had not been taken. In March 2006, USAID/Senegal submitted
documentation on its final actions, and the recommendations were closed by the Office
of Management Planning and Innovation (M/MPI), the predecessor to the present Audit
Performance and Compliance Division within the Management Bureau’s Office of the
Chief Financial Officer (M/CFO/APC).

At the time of the original audit, the contracting officer and RCO staff were under the
management and oversight of the director at USAID/Senegal. In 2006, administrative
oversight of the contracting officer was transferred from USAID/Senegal to USAID/West
Africa in Accra, Ghana. The contracting officer and the two USAID/Senegal-funded
RCO staff work from their office at the USAID/West Africa satellite office located within
USAID/Senegal. Although the contracting officer provides support to other USAID
missions in West Africa, this followup audit focused on the contracting operations for
USAID/Senegal. Therefore, this report is addressed to the USAID/Senegal Mission
director who is responsible for the actions needed to close the recommendations
pertaining to contracting operations at USAID/Senegal. The USAID/West Africa Mission
director is copied on this report for informational purposes.




                                                                                           3
AUDIT OBJECTIVE
RIG/Dakar conducted this audit to answer the following question:

   •	 Did USAID/Senegal implement the recommendations from Report No. 7
      685-05-003-P on its contracting operations?

Appendix I contains a discussion of the scope and methodology of the audit.




                                                                              4
AUDIT FINDINGS

The Regional Contracting Office (RCO) took adequate measures to fully implement one
of the three recommendations from the prior audit report. However, based on
RIG/Dakar’s review of documentation and observation of the RCO’s operations, the
other two recommendations were only partially addressed by measures taken by the
RCO, and some of the same conditions from the prior audit remain.

Recommendation No. 2 of the previous audit report recommended that the mission
develop specific procedures assigning responsibility for completing and submitting
contractor performance evaluations to the National Institutes of Health (NIH) Contractor
Performance System. In its response to the report, USAID/Senegal agreed to develop
procedures that would assign one of the staff the responsibility to submit contract
performance information to the NIH system. The mission also agreed that during its
portfolio reviews, the results of contract evaluations would be discussed and reviewed.
As final action on the recommendation, USAID/Senegal submitted evidence of the new
procedures to the Office of Management Planning and Innovation (M/MPI) on March 1,
2006.

This audit found that these actions had been fully implemented. Specifically, an
acquisition and assistance specialist within the RCO was designated as the person
responsible for completing and submitting contractors’ performance evaluations in the
NIH Contractor Performance System. RIG/Dakar’s review of that system also revealed
that contractor information was being submitted timely. The audit also found through a
review of notes and minutes from portfolio reviews held after the original audit that the
RCO staff presented information on the contractors’ performance.

Although Recommendation No. 2 was fully addressed by actions taken by the mission
and the RCO, the actions taken in response to Recommendation Nos. 1 and 3 were not
fully implemented and only partially addressed the weaknesses found in the prior audit.
A discussion of these actions and the weaknesses that remain follows.

Contract Information System Is
Not Fully Implemented

Summary: In response to the prior audit, USAID/Senegal agreed to implement an
integrated contract information system. A database was created and information
regarding that system was submitted to justify closure of the recommendation. At the
time of the followup audit, however, this database system was not being used and some
of the weaknesses previously found continued to exist. The RCO also began using the
Agency’s Secure Image and Storage Tracking (ASIST) system as another mechanism to
manage contract information, but only 1 of 82 contracts1 had been entered into the
system. For more than 1 year, the contracting officer position within the RCO was
vacant, resulting in limited leadership and direction for the RCO staff, which directly
contributed to the lack of followthrough and persistence in using the database and

1
  Throughout this report, the term “contract” refers to various funding and award instruments
including contracts, cooperative agreements and grants.


                                                                                           5
ASIST. As a result, management and the contracting office staff cannot be assured that
contract data they need for their programs are accurate and complete.

Recommendation No.1 of the previous report recommended that the mission implement
an integrated contract information system based on a master database. In its response
to that audit, USAID/Senegal agreed to identify and implement a database system that
would support, monitor, and track contracting information. Staff from the RCO and the
Mission’s Information Resource Management office worked together to create an
inhouse database system that would record and track contracts managed by the RCO.
The mission submitted documentation related to the development and implementation of
this system, including graphics showing the computer screens for the system, to M/MPI
on March 1, 2006, and the recommendation was closed.

However, at the time of the followup audit in September 2007, the RCO staff was not
using this system. The audit team could not determine how long the system had been
used or when the staff stopped using it. According to USAID Senegal Mission officials,
the previous contracting officer supported using the system, but left the mission in July
2006. Additionally, prior to his departure, in June 2006, the RCO lost its administrative
assistant (who performed the contract data entry into the system) during a downsizing at
USAID/Senegal.

Subsequent to the creation of the database, the RCO began using the Agency’s Secure
Image and Storage Tracking (ASIST) system to monitor and track contracts. ASIST is a
digital filing system designed to improve efficiency and security of documents; it is
designed with the idea of becoming a central repository for storage of contract materials.
ASIST has a wide range of capabilities with a variety of screen views available to
provide tracking and easy retrieval of stored documents, and emails can easily be added
to ASIST folders using the drag-and-drop maneuver. At the time of the followup audit,
however, the RCO’s staff was not utilizing ASIST and had entered data for only 1 of 82
contracts into the system.

Without the full implementation of the integrated database or use of ASIST some of the
weaknesses found in the previous audit continued to exist. For example, the nine
contracts reviewed, that were active, pending closeout or closedout were still monitored
and tracked on separate Excel spreadsheets as was the case during the initial audit,
with individual records of instruments moved manually from one file to another during the
contracting process. Although RIG/Dakar did not conduct an extensive examination of
the current contracts, including the spreadsheets containing contract information, it is
possible that data integrity problems exist therein as well, including duplicate records,
errors, and missing data. As a result, management and staff may be using incomplete
or inaccurate data for decisionmaking in their programs. Furthermore, the contract
management operations are less efficient than they would be if a more systematic
approach of managing information was in place.

The primary reason for discontinuing the use of the inhouse database and the limited
use of the ASIST system was the critical lack of senior leadership and direction from a
contracting officer in the RCO. As mentioned earlier, at approximately the same time,
both the contracting officer and administrative assistant left the RCO. The two RCO
acquisition and assistance specialists at USAID/Senegal managed the daily contracting
tasks, with technical contracting support provided by contracting officers in Accra,
Ghana. In spite of these notable efforts, for 14 months there was no leadership within


                                                                                        6
the RCO to ensure that, among other priorities, the use of the database and ASIST
remained a priority.

In September 2007, an experienced contracting officer arrived at USAID/Senegal to
assume leadership responsibility in the RCO. In discussing the previous audit and the
results of this followup audit, the contracting officer agreed that ASIST is an effective
system for storing important contract information, and she intends to ensure that the
system is fully utilized. However, the contracting officer also noted that ASIST may not
be the best mechanism to meet the various tracking and monitoring needs of the
missions in the region, and she would want to further investigate the inhouse database
previously developed as well as other options.

The audit team believes that with the arrival of the new contracting officer at
USAID/Senegal, the RCO staff will have the day-to-day leadership as well as the longer
term vision and direction that were missing. However, to ensure the further development
and use of an integrated database and ASIST, RIG/Dakar is making the following
recommendation.

   Recommendation No. 1: We recommend that the contracting officer at
   USAID/Senegal establish a plan and schedule (a) to develop and implement an
   integrated database suitable for tracking and monitoring contract and other
   funding instrument activities as previously recommended and (b) to enter all
   active funding instruments into the Secure Image and Storage Tracking (ASIST)
   system.

Controls Needed
for Closeout Process
 Summary: The prior audit noted that the USAID Senegal Mission Order 216-1 on
 closeout procedures was not being followed and recommended that procedures be
 developed that would assign responsibility to specific staff to actively monitor the
 closeout of expired instruments. The mission agreed and submitted its internal
 Acquisition and Assistance Policy No. 2 Close-Out Procedures for Completed
 Instruments to M/MPI as final action to close the recommendation. That policy
 provided some guidance for the closeout procedures but did not specifically
 designate responsibility for monitoring the closeout process. With this policy and
 USAID Senegal Mission order, RIG/Dakar believes that sufficient guidance exists
 pertaining to the closeout process. However, sufficient controls to ensure compliance
 with the procedures have not been put in place because of a lack of senior oversight
 and direction in the RCO for more than 1 year. As a result, closeouts have not been
 completed in a timely manner and the mission risks being in noncompliance with the
 Automated Directives System and/or the Federal Acquisition Regulation.

The prior audit report noted that the RCO was not complying with the existing USAID
Senegal Mission Order 216-1 governing the closeout procedures and timeframes. This
noncompliance resulted in a backlog of instruments waiting to be closed out because the
RCO was not following up on closeouts in progress. Recommendation No. 3
recommended that USAID/Senegal develop specific procedures that would include
assigning responsibility for actively monitoring and closing out expired instruments. In
response to the recommendation, the mission agreed to develop such procedures that


                                                                                       7
would include timeframes for processing closeouts by the Office of Financial
Management (OFM) and cognizant technical officers (CTOs). In addition, the mission
agreed to review the status of closeouts during portfolio reviews. On March 9, 2006 the
contracting officer issued Acquisition and Assistance (A&A) Policy No. 2 Close-Out
Procedures for Completed Instruments. The mission submitted evidence of this
procedure to M/MPI as its final action to support the closure of the recommendation.

During this followup audit, RIG/Dakar found that the status of closedout funding
instruments and deobligations of previously committed funds were being reviewed and
discussed during portfolio reviews at USAID/Senegal. Additionally, an examination of 3
of 30 selected contracts revealed that funds were fully committed or that any unused
funds were recommitted. However, a review of A&A Policy No. 2 revealed that the key
element of the original recommendation — specifying who is ultimately responsible for
monitoring the closeout process — was not included in the policy. The policy does
delineate the role of the acquisition and assistance specialist, the staff in OFM, and the
CTOs. Their responsibilities include actions such as reviewing contracting records,
processing deobligations, and closeout reporting, but the policy is silent about who
should be following up to ensure that the closeout process is progressing within the
required timeframes. The contracting officer who drafted the policy is no longer at
USAID/Senegal, and the current RCO staff could not provide any insight as to why this
specification was omitted from the policy.

Despite the lack of specificity in that policy, RIG/Dakar believe that the USAID Senegal
Mission Order 216-1 and A&A Policy No. 2 combined provide sufficient specific guidance
for the closeout process. However, operational controls to ensure compliance with those
existing procedures are missing. Without such controls, mission procedures are not
being followed, which could result in closeouts not being completed in a timely manner
and the reoccurrence of the conditions observed during the initial audit, including
closeout actions pending for long periods of time and funds remaining obligated on
expired instruments. More important, such conditions could lead to noncompliance with
the Agency’s Automated Directives System (ADS) and/or the Federal Acquisition
Regulation.

As mentioned earlier, the contracting officer position at USAID/Senegal remained vacant
for 14 months, resulting in a lack of senior oversight and direction for the RCO staff —
the type of direction that could have ensured compliance with USAID Senegal Mission
order and internal policy. The experienced contracting officer who arrived in September
2007 should now provide that oversight and direction. However, to assist the contracting
officer and ensure that this condition is fully addressed, RIG/Dakar is making the
following recommendation.

   Recommendation No. 2: We recommend that the contracting officer at
   USAID/Senegal develop controls to facilitate the management and measurement
   of progress toward closing out funding instruments in compliance with
   established procedures. This could include but not be limited to developing a
   plan with timeline and steps needed to fully close out funding instruments.




                                                                                        8
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Senegal agreed with the findings and recommendations in our draft audit report.
RIG/Dakar believes that USAID/Senegal’s comments and planned actions are
responsive to the report recommendations. The mission included an action plan in its
response with a schedule to complete implementation of both recommendations. In
response to Recommendation No. 1, the mission is modifying its existing database to
expand its capability to track and monitor contract documents, providing training,
finalizing data entry and updating the ASIST database system. With regard to
Recommendation No. 2, the mission is updating its closeout status list of expired
awards, establishing procedures and providing training to manage and measure
progress of the closeout process. The audit team considers that a management decision
has been made for these two recommendations. The comments in their entirety are
presented in appendix II.




                                                                                   9
                                                                             APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The office of the Regional Inspector General/Dakar conducted this audit of
USAID/Senegal’s Regional Contracting Office (RCO) in accordance with generally
accepted government auditing standards. The purpose of the followup audit was to
determine whether USAID/Senegal had taken effective corrective actions to justify final
action on the recommendations of Audit Report No. 7-685-05-003-P, dated January 31,
2005. The audit scope covered all three recommendations from this report and actions
taken by the mission from January 2005 to September 2007.

In planning and performing this audit, RIG/Dakar reviewed all relevant documentation
pertaining to actions taken by the mission and the RCO to close the recommendations.
The audit team assessed the appropriateness and effectiveness of the new procedures
and other measures implemented by the mission in response to each audit
recommendation. Specifically, the audit team evaluated the RCO’s implementation of
the Agency Secure Image and Storage Tracking (ASIST) system, the completion and
submission of contractors’ information to the National Institutes of Health (NIH), and the
processing of closeout contracts and deobligation of funds from expired instruments.
The audit fieldwork was conducted from September 5 through October 1, 2007, at the
USAID Senegal Mission in Dakar, Senegal.

Methodology
In performing the audit work, RIG/Dakar reviewed the mission’s written response to the
audit, which outlined the specific steps to be taken to correct the identified weaknesses.
For each of the three recommendations, the team reviewed the documentation that was
submitted as final actions that would close the recommendations. The reviewed
documentation included a list of contracts that were active, closedout and in the process
of being closed out, portfolio reviews; and revised RCO guidance (including mission
orders). The team also interviewed the RCO’s staff to verify that the procedures that
were developed in response to the original audit had in fact been implemented. With
regard to Recommendation Nos. 1 and 2, RIG/Dakar judgmentally selected 9 of 82
contract documents for review to determine if the contractors’ performance evaluations
were submitted to the NIH Contractor Performance System and if the mission had put in
place an electronic file maintenance system. With regard to Recommendation No. 3, the
team reviewed 3 of 30 contracts that were in the process of being closed out to ascertain
if the contracting office was closing out and deobligating expired instruments in a timely
manner.

The team also performed limited testing on the new procedures to ascertain if the
procedures were having the intended impact such that the weaknesses identified during
the original audit had been resolved. Subsequently, the audit team formed a judgment
about whether the actions addressed the deficiencies previously reported. In judging the
significance of our observations, to determine whether final actions occurred, RIG/Dakar
considered errors or variances of 10 percent or more to be significant and reportable.




                                                                                       10
                                                                            APPENDIX II 




MANAGEMENT COMMENTS 



Date: 	        12/14/2007

To: 	          Abdoulaye Gueye, Acting Regional Inspector General/Dakar

From:	         Kevin Mullally, Mission Director

Subject: 	     Follow-Up Audit of USAID/Senegal’s Contracting Operations
               Audit Report No. 7-685-08-00X-P

Ref: 	         Toolan/Mullally Memo dated 10/31/2007


This memo is to acknowledge receipt of the referenced draft audit report as well as to
provide Mission comments on the findings and recommendations therein.

With respect to the above objective, Mission Management would like to make the
following comments on the report's findings as they relate to the recommendation being
addressed:

Recommendation 1: We recommend that the Contracting Officer at USAID/Senegal
establish a plan and schedule (1) to develop and implement an integrated database
suitable for tracking and monitoring contract and other funding instrument activities as
previously recommended; and, (2) to enter all active funding instruments into the Secure
Image and Storage Tracking (ASIST) system.

USAID/Senegal is in agreement with this audit finding and recommendation and has
decided to implement the corrective action plan detailed below to address the weaknesses
identified in the draft audit report. For this recommendation, the plan consists of two
parts, one related to the integrated database and the second related to the ASIST system:

(1) Integrated tracking an monitoring database




                                                                                         11
                                                                              APPENDIX II 



                        PLAN                                ACTION         COMPLETIO
                                                                            N DATE
Modify existing database “PTS” (Procurement               IT staff with
Tracking System) to expand its capabilities, add          RCO & EXO
                                                                                1/31/2008
additional elements (including for EXO                    staff input
procurements), and initiate trial of reporting function
Train EXO procurement staff on “PTS” to ensure            A&A
unified Mission-wide procurement award log and            Specialists
tracking system and to avoid issuing duplicate award      EXO                   2/15/2008
numbers                                                   Procurement
                                                          Specialists
Finalize data entry for all outstanding active awards     RCO and EXO
                                                                                3/15/2008
into the database                                         staff
Finalize additional reporting capabilities (e.g., award   IT staff with
log, solicitation log, active awards table close-out      RCO & EXO             3/31/2008
report)                                                   staff input
Full implementation of unified log and tracking           RCO and EXO
system, covering all outstanding awards and new           staff
                                                                                4/15/2008
awards issued in FY 2008. Eliminate all stand-alone
logs, trackers & reports for the RCO

The following corrective actions have been taken to-date since the issuance of the draft
audit:

   1.	 RCO staff reviewed the existing database system, developed in response to the
       original audit, to determine its user-friendliness and viability as an integrated log
       and tracking system. To be viable this system would need to consolidate and
       integrate several logs and tracker tables that currently are managed separately by
       RCO staff, namely the solicitation log, award number log, active awards chart,
       and closeout table. The system would need to be expanded to include EXO
       procurement terminology (as staff also needs access to the award number log).
       And most importantly, the system needs to have an expanded reporting capability.

   2.	 After discussion with the Systems Manager and assurances that the necessary
       adaptations were feasible, the RCO concluded that the existing database system
       could enable the Mission to have a viable integrated tracking log and system.
       There is no need to develop a new system.

   3.	 On Nov 23, 2007, RCO staff provided the Systems Manager with detailed
       information regarding the additional database elements and fields the needed to be
       added to the system, as well as detailed information regarding report needs.

   4.	 RCO staff has entered data for all current active awards into PTS. Additional
       information may need to be added once IT completes system modifications.




                                                                                         12
                                                                            APPENDIX II



(2) Secure Image and Storage Tracking (ASIST) system

                       PLAN                               ACTION           COMPLETION
                                                                              DATE
Arrange for in-house training and assistance with       RCO,
scanning of active files into ASIST                     Controller &          12/31/2007
                                                        EXO
Review files for accuracy, organization and             RCO staff
completeness. Make corrections/adjustments where                               1/15/2008
needed
Determine organization/set-up of files and folders in   RCO staff
                                                                               1/15/2008
ASIST
Training on ASIST for RCO staff and WA                  FM File Clerk
                                                                               1/31/2008
Admin/Program Assistant
Scan all active award files, including relevant pre-    FM File
award and post-award documents (i.e., MAARDS,           Clerk, RCO
                                                                               2/28/2008
justifications, negotiation memos, CTO Designation      Staff and WA
letters, administrative approvals, etc.)                Admin Asst.
Scan new awards, modifications and related              RCO and
                                                                                ongoing
documents after award signed by RCO                     Admin staff

The following corrective action has been taken since the issuance of the draft audit
report:

   1.	 A review by RCO staff of active files has been initiated and currently is
       underway. This step in necessary before scanning should start to ensure that the
       files are complete and file organization is consistent with the Federal Acquisition
       Regulations and USAID/W Office of Acquisition and Assistance (OAA)
       guidance.

   2.	 Information has been obtained from the Benin Mission and Madagascar Missions
       regarding the structure and set-up of their contracting files in the ASIST system

   3.	 An agreement has been made with the Controller to make available FM’s File
       Clerk to provide trainingand assistance in scanning RCO files into ASIST.

Recommendation 2: We recommend that the Contracting Officer at USAID/Senegal
develop controls to facilitate the management and measurement of progress towards
closing-out funding instruments in compliance with established procedures. This could
include but not be limited to developing a plan with timeline and steps needed to fully
close-out funding instruments.




                                                                                       13 

                                                                             APPENDIX II 



                     PLAN                                ACTION          COMPLETION
                                                                            DATE
Pending full implementation of the PTS               RCO staff
reporting capability, update close-out status list                          12/15/2007
of expired awards
Training session (to include Q& As) for Mission      RCO and
technical, financial and program staff on close      Controller             2/15/2008
out procedures and responsibilities
Eliminate backlog of awards to be closed-out,        RCO staff with
with particular emphasis on older expired awards     assistance from        3/15/2008
with funds to be de-obligated                        FM and CTOs
Hold bimonthly meetings with CTOs, Program,          RCO, CTOs
                                                                             ongiong
FM and RCO staff to track progress on backlog        Program, FM
Once backlog is eliminated, include close-out        RCO, CTOs,
reviews as part of the semi-annual portfolio         Program, FM             ongoing
reviews to track progress

The following corrective action has been taken since the issuance of the draft audit
report:

   1.	 Requested and received from FM information on unexpended balances in expired
       awards.

   2.	 Updated the RCO close-out status list to include unexpended balances and current
       NICRA and audit information. This separate list will be eliminated once the PTS
       system is fully functional.

   3.	 Sent letters to all contractors/recipients on the list requesting confirmation of
       activity completion, submission of final technical and financial reports, as well as
       other information required in USAID close-out guidance (ADS and CIB 90-12).
       For awards with unexpended balances, Contractors/Recipients were requested to
       confirm no outstanding expenditures remained and the unexpended balances
       could be de-obligated. Letters included response due dates.

   4.	 Provided updated close-out status list for the teams which were reviewed during
       the last semi-annual portfolio reviews held December 3-6, 2007.




                                                                                         14
U.S. Agency for International Development
      Office of Inspector General
      1300 Pennsylvania Ave, NW 

        Washington, DC 20523 

          Tel: (202) 712-1150 

          Fax: (202) 216-3047 

          www.usaid.gov/oig


                                            15
